No. 21-164

In the

Supreme Court of the United States
TRUSTEES OF THE NEW
LIFE IN CHRIST CHURCH,
Petitioners,
v.
CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.
On Petition for Writ of Certiorari to the Circuit
Court of the City of Fredericksburg, Virginia
BRIEF OF AMICI CURIAE THE
ASSEMBLY OF CANONICAL ORTHODOX
BISHOPS OF THE UNITED STATES OF
AMERICA, DIOCESE OF THE MID-ATLANTIC
OF THE ANGLICAN CHURCH IN NORTH
AMERICA, COLUMBIA UNION CONFERENCE
OF SEVENTH-DAY ADVENTISTS,
EVANGELICAL COUNCIL FOR FINANCIAL
ACCOUNTABILITY, THE FAMILY FOUNDATION, INTERNATIONAL CONFERENCE OF
EVANGELICAL CHAPLAIN ENDORSERS,
NATIONAL LEGAL FOUNDATION, AND
PACIFIC JUSTICE INSTITUTE
in Support of Petitioners
Steven W. Fitschen
James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, Va. 23322
(757) 463-6133

Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

(i)
TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
STATEMENTS OF INTEREST ................................. 1
SUMMARY OF ARGUMENT .................................... 4
ARGUMENT ............................................................... 4
I.

Established Virginia Law Provides That the
Tax Exemption Is Available for Other Than the
Lead Minister of a Church, Clearly Presenting
the Federal Questions Posed by the Petition ..... 5

II. Allowing a Government to Second-Guess
Good-Faith Church Determinations of Who
Serves As Its Ministers Based on the
Government’s Reading of Church
Documents Will Disadvantage Some
Churches Compared to Others ............................ 7
CONCLUSION.......................................................... 10

(ii)

TABLE OF AUTHORITIES
Cases
Bouldin v. Alexander, 82 U.S. (15 Wall.) 131
(1872) ....................................................................... 5
Corporation of Presiding Bishop of Church of
Jesus Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1987) ................................................. 8
Cudlipp v. City of Richmond,
180 S.E.2d 525 (Va. 1971) ....................................... 5
Fowler v. R.I., 345 U.S. 67 (1953) .............................. 8
Gonzalez v. Roman Catholic Archbishop of
Manila, 280 U.S. 1 (1929) ....................................... 5
Hosanna-Tabor Evan. Lutheran Church &
School v. EEOC, 565 U.S. 171 (2012) ..................... 9
Kedroff v. St. Nicholas Cathedral of
Russian Orthodox Church in N. Am.,
344 U.S. 94 (1952) ................................................... 5
Larson v. Valente, 456 U.S. 228 (1982) ...................... 8
Presbyterian Church in the U.S. v. Mary
Elizabeth Blue Hull Mem’l Presbyterian
Church, 393 U.S. 440 (1969) ................................... 5
Serbian E. Orthodox Diocese for the U.S. &
Can. v. Milivojevich, 426 U.S. 696 (1976) .......... 5, 7

(iii)
United States v. Ballard, 322 U.S. 78 (1944)............. 8
Watson v. Jones, 80 U.S. (13 Wall.) 679 (1871) ......... 5
Statutes
Va. Code § 58.1- 3606(A)(2) ........................................ 5
Other Authorities
Opinions of the Attorney General and Report to the
Gov. of Va. 276 (Aug. 23, 1976)............................... 6

1
STATEMENTS OF INTEREST 1
The Assembly of Canonical Orthodox Bishops of the United States of America (Assembly) is
a not-for-profit corporation comprised of all active canonical Orthodox Christian bishops of Orthodox jurisdictions in the United States. Together, the Orthodox
Christian jurisdictions are part of the universal Orthodox Christian Church, which traces its lineage directly to the biblical New Testament era. The Assembly preserves and contributes to the unity of the Orthodox Christian Church in the United States by furthering its spiritual, theological, ecclesiological, canonical, educational, missionary, and philanthropic
aims. As hierarchical entities, the Orthodox Christian
jurisdictions are particularly concerned about preserving their constitutional right to govern themselves and determine their own doctrines.
The Diocese of the Mid-Atlantic (Diocese) is a
regional diocese of the Anglican Church in North
America dedicated to reaching North America with
the transforming love of Jesus Christ. It exists to
equip clergy and congregations within the Diocese to
fulfill the Great Commandment (Mark 12:29-31) and
the Great Commission (Matthew 28:19-20) of Jesus
Christ by leading people into a growing relationship
with Jesus Christ through personal discipleship,
All parties received timely notice of Amici’s intent to file
this brief and consented to its filing. No party or party’s
counsel authored this brief in whole or in part or contributed money that was intended to fund its preparation or
submission, and no person other than Amici Curiae, their
members, or their counsel contributed money that was intended to fund the preparation or submission of this brief.
1

2
evangelism, and the nurturing and planting of congregations. The Diocese consists of more than forty congregations, missions, mission fellowships, and church
plants in Virginia, Maryland, District of Columbia,
Delaware, eastern West Virginia, and northeastern
North Carolina. Thirty-one of these are located in Virginia, as are the headquarters of the Diocese. Both the
Diocese and all of its congregations have a significant
interest in the outcome in this case.
The Columbia Union Conference of Seventhday Adventists (Conference) coordinates the Seventh-day Adventist Church’s work in the Mid-Atlantic
United States, where 140,000 members worship in
843 congregations. Many of these congregations are in
Virginia, and the Conference has a direct interest in
the outcome of this case.
The Evangelical Council for Financial Accountability (ECFA) provides accreditation to leading, Christ-centered churches, associations of
churches, and parachurch organizations that faithfully demonstrate compliance with established standards for financial accountability, stewardship, and
governance. For over 40 years, one of ECFA’s core
principles has been the preservation of religious freedom through its standards of excellence and integrity,
which help alleviate the need for burdensome government oversight of religious organizations. More than
2,500 churches, Christian ministries, denominations,
educational institutions, and other tax-exempt
501(c)(3) organizations are currently accredited by
ECFA, including many operating in Virginia. ECFA
has been actively involved on behalf of its accredited
religious organizations in cases involving ministerial
housing allowances.

3

The Family Foundation (TFF) is a Virginia nonpartisan, non-profit organization committed to promoting strong family values and defending the sanctity of human life in Virginia through its citizen advocacy and education. TFF serves as the largest profamily advocacy organization in Virginia, and its interest in this case is derived directly from its members
throughout Virginia who seek to advance a culture in
which children are valued, religious liberty thrives,
and marriage and families flourish.
The International Conference of Evangelical
Chaplain Endorsers (ICECE) is a conference of
evangelical organizations that endorse Christian
clergy to be chaplains in the military and other limited
access organizations where chaplains provide for the
free exercise of religion. ICECE’s most important issue is the protection and advancement of religious liberty for all chaplains and military personnel. ICECE
supports challenges to government encroachments or
restrictions on churches’ autonomy and internal governance to preclude similar restrictions on military
ministry.
The National Legal Foundation (NLF) is a public interest law firm dedicated to the defense of First
Amendment liberties and the restoration of the moral
and religious foundation on which America was built.
The NLF and its donors and supporters, including
those in Virginia, seek to ensure that a historically accurate understanding of the Religion Clauses is presented to our country’s judiciary.
The Pacific Justice Institute (PJI) is a nonprofit legal organization established under section

4
501(c)(3) of the Internal Revenue Code. Since its
founding in 1997, PJI has advised and represented in
court and administrative proceedings thousands of individuals, businesses, and religious institutions, particularly in the realm of First Amendment rights. As
such, PJI has a strong interest in the development of
the law in this area.
SUMMARY OF ARGUMENT
Virginia law, as definitively interpreted by its Supreme Court, allows a real estate tax exemption for
more than one minister of a church and for ministers
other than the lead minister of the congregation.
Here, though, the city decided that the church’s employees who are responsible for its ministry to local
college students are not ministers of the church. Thus,
this petition raises a federal issue of critical importance: may a government supplant a church’s goodfaith assertion that its employee is a minister by making its own, conflicting interpretation of the church’s
governing documents. Such meddling in church affairs not only is beyond governmental authority and
competence, but it also disadvantages some religious
bodies compared to others and encourages religious
organizations to tailor religious decisions to governmental policies.
The decision below is both mischievous and directly contrary to this Court’s precedent. This Court
should grant the petition and reverse.
ARGUMENT
The city’s second-guessing of the church’s goodfaith designation of its employees as ministers

5
violates a consistent line of this Court’s decisions. See,
e.g., Serbian E. Orthodox Diocese for the U.S. & Can.
v. Milivojevich, 426 U.S. 696, 713 (1976); Presbyterian
Church in the U.S. v. Mary Elizabeth Blue Hull Mem’l
Presbyterian Church, 393 U.S. 440, 449 (1969);
Kedroff v. St. Nicholas Cathedral of Russian Orthodox
Church in N. Am., 344 U.S. 94, 116 (1952); Gonzalez
v. Roman Cath. Archbishop of Manila, 280 U.S. 1, 16
(1929); Bouldin v. Alexander, 82 U.S. (15 Wall.) 131
(1872); Watson v. Jones, 80 U.S. (13 Wall.) 679, 727
(1871). Amici write to demonstrate their concern
about this development and to assure this Court that
the federal issues presented are not clouded by issues
of state law.
I.

Established Virginia Law Provides That
the Tax Exemption Is Available for Other
Than the Lead Minister of a Church,
Clearly Presenting the Federal Questions
Posed by the Petition

Virginia law provides an exemption from property
taxes for “[r]eal property and personal property owned
by churches or religious bodies . . . and exclusively occupied or used . . . for the residence of the minister of
any church or religious body.” Va. Code § 58.13606(A)(2). By use of the term “the minister” (emphasis added), the statute creates two ambiguities: (1)
whether only one minister may qualify for the exemption, and (2) whether the residence owned by the
church must be inhabited by its lead minister.
Both of these ambiguities were resolved by the Virginia Supreme Court in Cudlipp v. City of Richmond,
180 S.E.2d 525 (Va. 1971). Cudlipp involved a churchowned residence inhabited by a non-lead minister who

6
was in charge of the missionary ventures of the church
when the church had other residences for which it had
claimed the exemption. The Virginia Supreme Court
ruled that the statute did not limit the number of exemptions to one per church and, consequently, that
church property inhabited by a non-lead minister
qualified for the exemption. See also Opinions of the
Attorney General and Report to the Gov. of Va. 276
(Aug. 23, 1976) (interpreting the statute to cover a
church residence inhabited by its non-ordained music
minister).
The federal issue is, thus, clearly presented. Virginia law establishes that (a) a church may qualify for
more than one residence inhabited by its ministers;
and (b) to qualify, the residence does not have to be
inhabited by the church’s lead minister. Moreover, it
is undisputed here that New Life’s residence for which
it requested an exemption is used by leaders of a
church ministry that involves religious instruction
and evangelization by its resident employees. Finally,
it is undisputed that the church in good faith considers its resident employees to be its ministers. As a result, the petition cleanly presents the federal question
of whether the city violated the Constitution when it
second-guessed the church’s designation of its employees as ministers by making its own reading of the
church’s governing documents.

7
II.

Allowing a Government to Second-Guess
Good-Faith Church Determinations of
Who Serves As Its Ministers Based on the
Government’s Reading of Church Documents Will Disadvantage Some Churches
Compared to Others

Amici will not repeat the petition’s demonstration
that the city, by engaging in a perusal and interpretation of church documents to disagree with New Life
Church that its employees responsible for its college
ministry are ministers of the church, violated the Religion Clauses of the First Amendment. Only this
Court can now correct this error.
Amici do wish to emphasize that allowing governments to engage in such behavior will necessarily
have pernicious effects among churches. Allowing the
city’s conduct to go uncorrected will encourage similar
behavior. This will often be to the detriment of more
hierarchical churches, which, as a rule, have more
written polity statements than less formal churches,
giving government officials more church documents to
parse and interpret. See, e.g., Milivojevich, 426 U.S. at
715-20. The volume and formality of written statements vary from religion to religion and, within
Christianity, from denomination to denomination and
from church to church. This is well demonstrated by
Amici, some of whom would be considered less hierarchical and some more so. Some are independent
churches bound by no denominational polity; others
are part of a denominational superstructure that is
spelled out in multiple church documents, making
them more vulnerable to governmental second-guessing. But the Religion Clauses prohibit advantages being given to one type of religion or one type of church

8
over another. See, e.g., Larson v. Valente, 456 U.S. 228
(1982); Fowler v. R.I., 345 U.S. 67 (1953); United
States v. Ballard, 322 U.S. 78, 87 (1944) (“The First
Amendment does not select any one group or any one
type of religion for preferred treatment. It puts them
all in that position.”).
This Court has also recognized another evil that
comes from permitting governments to second-guess
whether churches qualify for an exemption. Permitting the type of activity that the city practiced here
has the potential to cause churches to modify their
policy and practice, not from religious considerations
alone, but to conform to governmental dictates, interpretations, or predilections. In Corporation of Presiding Bishop of Church of Jesus Christ of Latter-day
Saints v. Amos, 483 U.S. 327 (1987), this Court noted
that the broad exemption for religious organizations
under the Civil Rights Act of 1964 served the salutary
purpose of keeping the government from affecting
church polity:
it is a significant burden on a religious organization to require it, on pain of substantial liability, to predict which of its activities a secular
court will consider religious. The line is hardly
a bright one, and an organization might understandably be concerned that a judge would not
understand its religious tenets and sense of
mission. Fear of potential liability might affect
the way an organization carried out what it understood to be its religious mission.
Id. at 336 (footnote omitted). These concerns come
front and center when the issue is whom a church considers to be its minister, as Justice Thomas noted in

9
Hosanna-Tabor Evan. Lutheran Church & School v.
EEOC, 565 U.S. 171 (2012):
A religious organization’s right to choose its
ministers would be hollow, however, if secular
courts could second-guess the organization’s
sincere determination that a given employee is
a “minister” under the organization’s theological tenets. Our country’s religious landscape includes organizations with different leadership
structures and doctrines that influence their
conceptions of ministerial status. The question
whether an employee is a minister is itself religious in nature, and the answer will vary
widely. Judicial attempts to fashion a civil definition of “minister” through a bright-line test
or multifactor analysis risk disadvantaging
those religious groups whose beliefs, practices,
and membership are outside of the “mainstream” or unpalatable to some. Moreover, uncertainty about whether its ministerial designation will be rejected, and a corresponding
fear of liability, may cause a religious group to
conform its beliefs and practices regarding
“ministers” to the prevailing secular understanding. These are certainly dangers that the
First Amendment was designed to guard
against.
Id. at 197 (Thomas, J., concurring) (citation omitted).
These dangers have been realized in this case.

10
CONCLUSION
The Religion Clauses prohibit a government from
second-guessing a church’s good-faith designation of
who serves as its minister. The city violated that principle here, and, if allowed to stand, it could have multiple, deleterious effects that the Religion Clauses are
designed to protect. The petition should be granted.
Respectfully submitted
this 3rd day of September, 2021,
/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com
Steven W. Fitschen
James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, Va. 23322
(757) 463-6133

